21 • v? £

£’2

*•

f?

No.

filed
SEP -2 2021

IN THE
SUPREME COURT OF THE UNITED STATES

LsUPREEMEFOn!^L,^KJ

William Brinson Ball,

Petitioner,
v.
United States of America,

Respondent.

On Petition for a Writ of Certiorari to the
Eleventh Circuit Court of Appeals

PETITION FOR WRIT OF CERTIORARI

William Brinson Ball
Reg. No. 70048-018 Unit B-3
Federal Correctional Complex
P.O. Box 1031 (Low Cus;
Coleman, Florida 3315"^

SEP - 8,3W

QUESTION PRESENTED
Whether 18 U.S.C. § 2422(b) extends to conduct occurring outside the United
States.

i.

t

LIST OF PARTIES
All parties appear in the caption of the case on the cover page.
RELATED CASES

i

There are presently no related cases pending.

i

i

ii

TABLE OF CONTENTS
QUESTION PRESENTED

1

LIST OF PARTIES

li

RELATED CASES

n

TABLE OF CONTENTS

in

TABLE OF AUTHORITIES

iv

PETITION FOR A WRIT OF CERTIORARI

1

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF THE CASE

2

REASONS FOR GRANTING THE WRIT

3

CONCLUSION

4

VERIFICATION

5

APPENDICES
April 13, 2021 Eleventh Circuit Order Denying Rehearing

APP. A

November 17, 2020 Opinion of Eleventh Circuit Affirming Conviction

APP. B.

Supreme Court order extending time of filing certiorari

APP. C.

District Court Judgement and Commitment

APP. D.

iii

TABLE OF AUTHORITIES
Page

Cases
Morrison v. National Australia Bank,
561 U.S. 247 (2010).................

4

RJR Nabisco, Inc. v. Eur. Cmty.
136 S. Ct. 2090 (2016)....

3

United States v. Ball,
835 Fed. Appx. 493 (11th Cir. 2020)

1-4

United States v. Bowman,
260 U.S. 94(1922)..

3

WesternGeco LLC v. ION Geophysical Corp.,
138 S. Ct. 2129 (2018)..........................

3

Statutes
2-4

18U.S.C § 2422

2

18U.S.C. § 2252

iv.

PETITION FOR WRIT OF CERTIORARI
The 11th Circuit Court of Appeals avoided addressing whether § 2422 (b) was
correctly applied because this Court has not addressed whether the statute extends
to conduct occurring outside the United States, and because the statute itself does
not specifically resolve the issue. See United States v. Ball, 835 Fed. App’x. 493, 495
(11th Cir. 2020). But, as discussed below, the Eleventh Circuit should have
examined the issue as its decision is against this Court’s well settled precedent.
Mr. Ball’s case and circumstance provide a proper vehicle for this Court to
answer the question and resolve the mature dispute within the Court of Appeals.
Mr. Ball respectfully requests this court vacate the eleventh circuit’s decision.
OPINIONS BELOW
The opinion of the Eleventh Circuit appears at Appendix B to the petition,
and is unpublished. The order of the United States District Court appears at
Appendix D to the petition.
JURISDICTION
The date on which the Eleventh Circuit decided this case was November 17,
2020. A timely petition for rehearing was filed and subsequently denied on April 13,
2021. A copy of the order denying rehearing appears at Appendix A. On July 19,
2021, this court issued an order extending the time to seek certiorari to 150 days
after the decision of the Court of Appeals so long as the decision was issued prior to
July 19th, 2021. Appendix C. Accordingly, Mr. Ball’s petition is timely.

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
18 U.S.C. § 2422(b)
Whoever, using the mail or any facility or means of
interstate or foreign commerce, or within the special
maritime and territorial jurisdiction of the United States
knowingly persuades, induces, entices, or coerces any
individual who has not attained the age of 18 years, to
engage in prostitution or any sexual activity for which
any person can be charged with a criminal offense, or
attempts to do so, shall be fined under this title and
imprisoned not less than 10 years or for life.
STATEMENT OF THE CASE
Mr. Ball was charged with 18 U. S. C. § 2422(b) (Count One); and violating
U.S.C. § 2252(a)(1) and (b)(1) (Count Two). Mr. Ball pleaded guilty pursuant to a
plea agreement. The district court sentenced Mr. Ball to a 262-month term of
imprisonment; Mr. Ball appealed. The United States moved to dismiss the sentence
challenges raised on appeal based on the sentence-appeal waiver in Mr. Ball’s plea
agreement. The Eleventh Circuit granted the United States’ motion and dismissed
the claims pertaining to the sentencing issues raised. On November 17, 2020, the
Eleventh Circuit affirmed the claim that remained, that is, the jurisdictional defect
in Mr. Ball’s indictment that cascaded into the incorrect application of 18 U.S.C. §
2422. United States v. Ball, 835 Fed. App’x. 493, 495 (11th Cir. 2020). Mr. Ball
timely moved for rehearing but was denied.
REASONS FOR GRANTING THE WRIT
It is well settled that courts will give extraterritorial effect to penal statutes
where congressional intent is clear. See United States V. Bowman, 260 U.S. 94, 97

2

(1922). Courts “presume the federal statutes apply” only domestically, “within the
territorial jurisdiction of the United States.” WesternGeco LLC v. ION Geophysical
Corp., 138 S. Ct. 2129, 2136 (2018). As such, this court has established a two-part
framework for deciding questions of extraterritoriality. See WesternGecox 138 S. Ct.
at 2136.
First, a court must ask whether the text of the relevant statute “provides a
clear indication of an extraterritorial application” sufficient to rebut the
presumption against extraterritoriality. Id. If it does not, and the presumption
remains in force, then the second step “asks whether the case involves a domestic
application of the statute [,]” That is, “whether the conduct relevant to [the statute’s]
focus occurred in United States territory” Id. If it did, then application of the statute
is permissible. Id. Finally, courts should proceed in sequence, addressing step one
first and step two only where necessary. See RJR Nabisco, Inc. v. Euro. Cmty., 136
S. Ct. 2090, 2101 n.5 (2016).
Here, the Eleventh Circuit's holding illustrates the prongs of this Court's
two-part test were not met, [b]ecause neither the Supreme Court nor this court had
addressed whether § 2422 extends to conduct occurring outside the United States,
and the statute itself does not specifically resolve this issue....”) Ball, 835 Fed.
App’x at 495. Specifically, the Eleventh Circuit opinion concedes that: 1) the text of §
2422(b) does not provide a clear indication of extraterritorial application; and 2) the
purported conduct occurred outside of United States territory.

Compare

WesternGeco, 138 S. Ct at 2136 with Ball, 835 Fed. App’x at 495. Needless to say,

3

the Eleventh Circuit’s decision in this case is contrary to the “longstanding principle
of American law that legislation of Congress, unless the contrary intent appears, is
meant to apply only within the territorial jurisdiction of the United States.”
Morrison v. National Australia Bank, 561 U.S. 247, 255 (2010)(internal quotation
marks omitted). All events told, Ball’s admitted-to conduct in the United States
(driving, eating, shopping, etc. is not a crime; therefore, Mr. Ball’s incidental travels
within the United States did not violate any federal or state laws. Thus, § 2422(b)
should not have been applied.
“If punishment... is extended to include [acts] committed outside of the strict
territorial jurisdiction, it is natural for Congress to say so in the statute, and failure
to do so will negat[e] the purpose of Congress in this regard.” Bowman, 260 U.S. at
98. Here, against this Court’s well-settled precedent, Mr. Ball stands convicted of a
crime of which the courts below are uncertain whether the criminal statute was
properly applied. See Ball, 835 Fed. App’x at 495.

4

CONCLUSION
This court should grant the writ of certiorari in order to bring before it the
substantial question of whether § 2422(b) extends to conduct occurring outside the
United States, since the statute itself does not specifically resolve the issue.
Respectfully submitted by William B. Ball on this

u

day of

2021.

0‘JLL 1i
William B. Ball
Reg. No. 70048-018
Unit B-3
Federal Correctional Complex Low
P.O. Box 1031
Coleman, Florida 33521
VERIFICATION
Under penalty of perjury as authorized by 28 U.S.C. § 1746, I declare the
factual allegations and factual statements contained in this document are true and
correct to the best of my knowledge.

U'JUU tlftJU
William B. Bah

5

